U.S. DEPARTMENT OF COMMERCE 

          Office of Inspector General 





                                Bureau of
                         Economic Analysis

           FY 2008 FISMA Assessment of
            BEA Estimation Information
                     Technology System
                            (BEA-015)


  Final Inspection Report No. OSE-19001/September 2008




                             Office of Systems Evaluation
                                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                                   Office of Inspector General
                                                                   Washington, D.C. 20230




                                                                 BEP 2 2 2008
lVlEMORANDUM FOR:	 J. Steven Landefeld
                              Director
                              Bureau of Economic Analysis
                                                       .(


                             ~
                             ?/     '7       v 1-~
                                                 -
FROl\1:                      Jlldith J. Gordon
                             i~~ssistanl1nspector   \Jeneral for .£A;t..udit and EvaluatIon

SUBjECT:	                    Bureau of Economic Analysis
                             FY 2008 FISMA Assessment ofBEA Estimation
                             Information Technology System (BEA-015)
                             Final Inspection Report No. OSE-19001


 1nlS report presents the results of our .rederal1nformation ~ecurity IVlanagement .A.. ct (FISrvll~1)
review of the BEA Estimation Information Teclmoiogy System certification and accreditation.
We found that while the system security plan provided an adequate basis to conduct the security
certification, BEA needs to improve its security control assessments to assure that controls are
implemented as intended. We also found that BEA needs to correct its process for tracking and
reporting security weak.nesses as required by Depmiment policy and OMB's FISMA guidance.
Finally, \ve performed our o\vn assessment of selected BEi\Jo. security controls and found
wea¥Jiesses in those controls that BEA's security certification did not.

In response to our draft report, llEA With one exception did not specificaiiy indicate whether it
agreed with our findings and the corrective actions described are not fully responsive to our
recommendations. BEA's response is summarized in the appropriate sections ofthe report and
included in it entirety as appendix B.

\XI e request that you provide us \vith an action plan describing the actions you have taken or plan
to take ill response to our recon1lllendations within 60 calendar days of the date of this report.
".....  ..  ..  .. .. .. •         ('0"     ('0..           ..        •      ....T"'lo.F""o.   An,. r   ....   •   ....
 Ine plan snoulCl De In tne Torm or plans or actIon ana mIlestones \rU.l~:l.&lVISj as requirea oy
FISMA.

We appreciate the cooperation and courtesies extended to us by your staff during our evaluation.
If you would like to discuss any of the issues raised in this report, please call me at
(202) 482-2754 or Allen Crawley, Deputy Assistant Inspector General for Systems
Evaluation at (202) 482-1855.

Attacl'ul1ent
cc:   Suzanne Hilding, Chief Information Officer, U.S. Department of Commerce
      Brian Callahan, Chief Information Officer, Bureau of Economic Analysis
                                   OIG FY 2008 FISMA Assessment


    Listing of Abbreviated Terms & Acronyms

    BEA                                Bureau of Economic Analysis 

    BEA-EITS                           BEA-Estimation Information Technology System 

    C&A                                Certification and Accreditation 

    CIO                                Chief Information Officer 

    DISA                               Defense Information Systems Agency 

    DOC                                Department of Commerce 

    FISMA                              Federal Information Security Management Act of 2002 


    IT                                 Information Technology 

    ITSO                               Information Technology Security Officer 

    NIST                               National Institute of Standards and Technology 

    OIG                                Office of Inspector General 

    OMB                                Office of Management and Budget 

    POA&M                              Plan of Action and Milestones 

    SSP                                System Security Plan 

    ST&E                               Security Test and Evaluation 




•                                                                                                      •


    Synopsis of Findings

      •	   System security plan provided an adequate basis to conduct the security certification.

      •	   Security certification lacked credible supporting evidence for technical security control
           assessments.

      •	   Vulnerabilities were not included in the security assessment report or identified in
           POA&Ms.

      •	   OIG assessment of selected security controls found significant weaknesses not
           identified by the BEA security certification.

    Conclusions

      •	   BEA needs to improve security control assessments to assure that controls are
           implemented correctly, operating as intended, and meeting the security requirements
           for the system.

      •	   The bureau should correct its process for tracking security weaknesses in POA&Ms
           as required by Department policy and FISMA guidance.




                                                Page 2
                                  OIG FY 2008 FISMA Assessment


Summary of BEA Response

BEA’s response to our draft report included a memorandum from the director with a brief
discussion of each finding and a memorandum from the CIO describing actions taken since our
review, discussion of some of the issues we found, and a table of action items addressing each of
our recommendations.

The CIO described actions completed since our review ended: the agency has improved its
continuous monitoring program, with the system’s authorizing official reviewing results; had
independent contractors perform a network penetration test; and developed a secure
configuration standard for Windows       servers after implementing the federal desktop core
configuration for its Windows   desktops.

In regard to BEA’s work developing secure configuration standards, the CIO described its risk-
based approach for implementing the standards on system components. The bureau, intending to
configure its most valuable assets first and minimize disruption to its core processes of producing
statistics, is only now configuring its less sensitive servers. The risk-based approach was said to
be “reflected in the [OIG] report where it is noted that some servers did not conform to our
standard.” The need for completing this work has now been added to the system POA&M in line
with one of our recommendations.

The CIO also makes the point that BEA is a small operating unit and depends on private
contractors to provide independent security control assessments. While BEA exercised care in its
selection, the contractors “have not met the documentation expectations of the OIG.”

The portions of the response applicable to our specific findings are described in the body of this
report along with OIG comments. The bureau’s response is included in its entirety as appendix B.

OIG Comments

BEA did not specifically indicate whether it agreed with our findings (with one exception), and the
corrective actions described are not fully responsive to our recommendations. The bureau did
indicate its intention to use our recommendations to improve BEA information security.

In its response, BEA appears to view the deficiencies we identified as primarily a documentation
issue. We disagree. We attribute our finding on the lack credible supporting evidence for technical
security control assessments to the inadequacy of the assessments themselves. This is
supported by OIG’s assessment of controls, which while limited, found significant deficiencies in
critical components.

BEA’s risk-based approach to implementing secure configuration settings was described in the
status of action items addressing two of our recommendations. In both cases, the discussion is
not responsive to our recommendations (see OIG comments in body of report). While a risk-
based approach may be entirely appropriate, we disagree with BEA’s assertion that it explains
why we found insecure settings in the components we assessed. Some security control
deficiencies were present in a certain subset of (noncritical) servers, but many secure
configuration settings were missing across the full spectrum of components we examined,
including components that process sensitive core data. BEA’s own secure configuration standard
for Windows showed that many settings had not yet been implemented in its two main network
domains, and made no distinction between more and less valuable assets in those domains.
However, BEA’s C&A process did not raise this as a risk or add appropriate actions to the
system’s POA&M.



                                              Page 3
                                   OIG FY 2008 FISMA Assessment


Introduction
 BEA-015, BEA Estimation Information Technology System (BEA-EITS), encompasses all of BEA’s
 information technology in support of its mission to promote a better understanding of the U.S.
 economy by providing the most timely, relevant, and accurate economic accounts data in an
 objective and cost-effective manner. The bureau, “produces some of the most closely watched U.S.
 economic statistics that influence critical financial decisions made by governments, businesses, and
 households.”1 BEA-EITS is utilized in BEA’s core business processes: data collection; analysis,
 tabulation, and estimation; and data dissemination.

 BEA has categorized BEA-EITS                    mpact system, which means a security breach
 could be expected to                         effect on organizational operations and assets, or
 individuals.

 The system is made up of a LAN infrastructure that includes web and remote access segments
 among others. Network components (primarily Cisco firewalls, routers, and switches) regulate the
 flow of internal and external communications. Windows servers process BEA information and
 perform key security services such as identification/authentication and access control. BEA’s
 internal users access the system via Windows workstations and laptops. BEA also provides public
 access to data via the Web. The system has a number of other components (such as remote
 access servers,              servers, storage area network) and applications (e-mail server, desktop
 office automation software, VPN clients, databases, proprietary applications).




 1
  BEA. Mission, Vision, Values [Online]. www.bea.gov/about/mission.htm (accessed May 30,
 2008).
                                               Page 4
                                   OIG FY 2008 FISMA Assessment



 Findings and Recommendations

1. System Security Plan Provided an Adequate Basis to Conduct the Security
   Certification

 •   The system description correctly represented the system components and defined the
     accreditation boundary.
       o Component listing was accurate.
       o System boundaries and interconnections were defined.

 •   In general, the security plan sufficiently addressed all applicable aspects of the required
     controls.
       o In the summer of 2006, OIG reviewed this system’s C&A package and found
           configuration settings (CM-6) for IT products had not been defined. A review of the
           current CM-6 control description in the security plan showed significant improvement—
           BEA has defined settings by adapting industry-defined secure configuration settings
           baselines for significant IT products implemented on the system.
            A weakness we found was that the baseline               (a Microsoft             ) does not
               describe the rationale for deviating from the DISA benchmark from which BEA’s
               baseline is derived. In addition,        DISA benchmark used by BEA is now out of
               date. DISA has published a new, more extensive benchmark.

 Recommendations

 BEA should

 1.1 document secure configuration baselines with its rationale for deviating from the benchmarks, as
     appropriate; and

 1.2 update its secure configuration baseline for IIS using the most current DISA benchmark
     available.



 BEA Response

 BEA noted the extensive work the bureau has done in developing the system security plan.. With
 respect to our first recommendation (1.1), BEA described actions it has taken in developing a
 standard configuration for Windows        servers. The bureau explained that it used a risk-based
 approach to implement configuration settings on its more valuable servers first and was currently
 securely configuring servers carrying less sensitive information. BEA indicated that it has updated
 its secure configuration baseline       using the most current DISA benchmark (in response to
 recommendation 1.2).

 OIG Comment

 We appreciate BEA’s efforts to improve security planning. However, the bureau was not
 responsive to recommendation 1.1 to document secure configuration baselines with appropriate
 rationale. Instead, the response is apparently addressing some aspects of finding 4 below.
 Recommendation 1.2 stemmed from our finding that BEA’s secure baseline             did not
 describe the rationale for defining settings that deviated from DISA-recommended settings. This
 type of documentation is recommended in NIST guidance as a means of recording the tailoring of
 baselines to reflect IT security policy and operational needs, and should be a normal part of
                                                Page 5
                                 OIG FY 2008 FISMA Assessment

defining all of the system’s secure configuration baselines—including the baseline for Windows
      servers that BEA is currently revising and its updated baseline      .




                                             Page 6
                                   OIG FY 2008 FISMA Assessment



2. Security Certification Lacked Credible Supporting Evidence for Technical
   Security Control Assessments
 In FY06, OIG reviewed BEA-EITS’ C&A as part of the annual FISMA evaluation. We identified
 significant weaknesses in the security control assessments, specifically:
        o Procedures to assess security controls were not applied to all the network components
            where the controls were required to be implemented.
        o Assessment results did not provide a basis for evaluating the adequacy of security
            controls.
        o Assessments of technical controls were only based on policy review and interview.
        o Frequently the assessments simply restated the control requirement with no meaningful
            information about the actual security control implementation or supporting evidence.

 The FY07 security certification showed some improvement—in particular, some of the required
 operational and management security control assessments were supported by evidence. However,
 we still found significant control assessment issues that indicate the security certification did not
 credibly identify the remaining vulnerabilities in the system. We focused on assessments that called
 for an examination or test of security controls implemented on system components (technical
 assessments).

 •   Of the 71 technical assessments, 55 cases (77%) lacked supporting evidence or the
     assessment activity was inappropriate.
       o 44 technical assessments were not supported by artifacts or other evidence to validate
           the results. (See table 1 for examples.)
       o In 11 of the remaining 27 cases, the evidence indicated the assessment activity was
           inappropriate or incomplete. (See table 2 for examples.)

 •   As in FY06, the certifier’s assessment procedures and results lacked specific information, such
     as which components were assessed and actual settings examined. (See table 3 for examples.)
       o Results were typically just restatements of generally worded procedures.
       o Assessments were either exactly the same as the FY06 assessments or had just minor
           alterations.

 •   The C&A package included two sets of results, one labeled “certifiers results” and the other
     “ST&E results.” The assessment procedures used in both were the same or similar; however,
     the results were different in several cases. BEA told us that the certifier’s results were the
     definitive results but also stressed that both assessments should be considered. (See table 4.)

 Recommendations

 BEA should ensure that

 2.1 all control assessments are supported by credible evidence to validate the assessment results;

 2.2 evidence shows that all applicable aspects of a control and an appropriate sample of
     components implementing it have been assessed; and

 2.3 assessment procedures and results include specific information about the implementation of
     the control and the steps taken to assess it.




                                                Page 7
                                   OIG FY 2008 FISMA Assessment


BEA Response

BEA did not specifically indicate if it agreed with this finding but explained that the private sector
contractors who performed the security certification were chosen in large part due to “past
successful performance.” The bureau indicated that the contractors did not meet “the
documentation expectations of the OIG,” and that “what is considered acceptable documentation
varies greatly across agencies.”

The bureau described the steps it is taking in its continuous monitoring to address our
recommendations. The authorizing official is reviewing control assessments for technical security
control families as they are completed. The bureau’s CIO indicates that “test results are
thoroughly documented with clear and appropriate artifacts,” and that BEA “would welcome a
review of this completed documentation to ensure that it meets OIG expectations.” The bureau
emphasized the promptness of its process for reviewing residual risks identified by this testing.

OIG Comments

BEA’s response suggests that the problems we identified were mostly attributable to poor
documentation of testing. On the contrary, we view our findings as evidence of inadequate
security control assessments. Our own control assessments, documented in finding 4 below,
support this position.

Adequate documentation is the byproduct of comprehensive control assessments required for a
security certification. Further, such documentation is not an “OIG expectation.” The assessment
process described in NIST SP 800-53A, Guide for Assessing the Security Controls in Information
Systems states, “Security assessments are not about checklists, simple pass-fail results, or
generating paperwork to pass inspections or audits…” BEA’s security assessments included
much paperwork but little evidence of tailored and scoped control assessment procedures and
results that gave credible confirmation of the status of controls.

While BEA attributes the problems to contractor performance, the bureau has the responsibility of
overseeing the contractors’ work for appropriate quality. Indeed, in our review, BEA staff told us
they worked closely with the contractors and reviewed control assessments in real time.

BEA’s response does not describe specific steps it will take to ensure each recommendation is
implemented, and instead emphasizes its review process. We reiterate the need for BEA to
ensure that (1) control assessments are supported by credible evidence, (2) all applicable
aspects of a control are assessed on appropriate samples of components, and (3) procedures
and results include specific information about control implementations.

With regard to OIG reviewing continuous monitoring control assessments, we have issued a data
call for this information and will consider it in our annual FISMA report to OMB.




                                                Page 8
                                    OIG FY 2008 FISMA Assessment



3. Vulnerabilities Were Not Included in the Security Assessment Report or
   Identified in POA&Ms

 •   Significant vulnerabilities discovered during C&A were not identified in the required security
     assessment report and vulnerabilities requiring mitigation were not tracked in a POA&M.
       o Windows configuration vulnerabilities were not described in the security assessment
            report and are currently being tracked outside the required POA&M process, which
            prevents mandated oversight by responsible Department and OMB officials.
             BEA is tracking these vulnerabilities, which are unimplemented secure configuration
                 settings defined in BEA’s Windows Security Standard, through an internal process.
             These vulnerabilities were identified more than 1 year ago, but BEA still has not
                 scheduled mitigation.
       o BEA’s CIO told us that he does not consider many of the unimplemented secure
            configuration settings for Windows to be vulnerabilities, the settings may never be
            implemented, and the secure configuration baseline may be revised as a result. However,
            this acceptance of risk was not documented in the C&A package. In addition, OIG’s
            assessment of controls found that the implementation of secure settings on servers was
            less complete than BEA’s internal tracking indicates.

 Recommendations

 BEA should

 3.1 comply with Department policy and guidance in tracking and correcting system security
     deficiencies;

 3.2 create POA&Ms to address the Windows vulnerabilities described above;

 3.3 explain vulnerabilities in security assessment reports according to guidance found in NIST SP
     800-37, Guide for the Security Certification and Accreditation of Federal Information Systems;
     and

 3.4 clearly articulate in the C&A package the vulnerabilities for which the bureau is accepting risk.
     Unimplemented secure configuration settings should be addressed in the security assessment
     report as well as the accreditation decision letter. If BEA chooses to redefine its secure
     baseline, that document should be updated with appropriate risk rationale.



 BEA Response

 BEA stated that it carefully tracks security weaknesses, but agreed that it had not done so
 properly through the use of POA&Ms. The bureau indicated that it would be listing on POA&Ms
 vulnerabilities that could not be mitigated quickly. It has recently added items related to secure
 configuration of Windows servers and the standard web browser to its system POA&M.

 Security assessment reports are being prepared for technical security controls reviewed in the
 continuous monitoring program. These reports are reviewed by BEA’s authorizing official (the
 CIO) and risk is either accepted or corrective actions prescribed. BEA is redefining its secure
 configuration for Windows        servers and these settings must be thoroughly tested before
 being implemented in its production environment. BEA’s risk-based approach was to implement
 settings in its most valuable assets first and minimize the potential for disruption in its critical
 processes. This approach explains why OIG found some servers did not conform to the BEA


                                                 Page 9
                                 OIG FY 2008 FISMA Assessment

secure baseline. A weakness related to completing implementation of secure configurations has
been added to the system POA&M.

OIG Comments

BEA’s corrective actions are generally responsive to our recommendations. However, the bureau
did not speak to the portion of recommendation 3.4 that suggests appropriate risk rationale be
included in secure configuration baselines BEA chooses to redefine. A related recommendation in
finding one (1.2) was also not addressed by the BEA response, so we are concerned BEA may
not adequately define its secure configuration baselines.

The Windows configuration vulnerabilities referred to in this finding were not limited to less
sensitive servers. Our finding related to specific settings that according to BEA’s own internal
tracking had not been implemented in its production and web domains. Together these
components encompass the vast majority of BEA servers—including those performing the most
critical operations referred to in its risk-based approach.




                                             Page 10
                                     OIG FY 2008 FISMA Assessment


4. OIG Assessment of Selected Security Controls Found Significant
   Weaknesses Not Identified by the BEA Security Certification
As part of the OIG’s FY08 FISMA evaluation of BEA-EITS, we assessed a targeted set of system
components to determine if selected security controls are properly implemented and whether related
system vulnerabilities were identified by BEA’s security certification. We tailored our procedures to the
specific control implementations of BEA-EITS. This tailoring is a necessary part of assessing controls
adequately and is a crucial component of NIST guidance. The results follow from the steps we took to
assess the control, include (or reference) our analysis, and cite specific supporting evidence. (See
appendix C.) The assessments, along with the supporting evidence, are transparent, clearly depicting
the status of the controls in order to effectively inform those who manage risk to agency operations,
agency assets, and individuals.

  •   We found weaknesses in the technical implementation of security controls that were not
      identified by the BEA security certification. (See table 5.) Some of our significant findings are as
      follows:
        o




  Recommendations

  BEA should ensure that

  4.1 the deficiencies we identified are added to the system’s POA&M and remediated in a timely
      manner; and

  4.2 control assessments are improved through tailored procedures and well-supported results
      which provide a transparent view of the status of controls.




                                                 Page 11
                                   OIG FY 2008 FISMA Assessment

BEA Response

BEA stated that it continuously monitors the effectiveness of security controls. BEA chose to
devote its scarce resources toward its first priority—the protection of critical market-sensitive and
company-confidential data. The bureau stated that it understands the importance of protecting the
entire system and is expanding the scope of its continuous monitoring program to include all
system components.

The bureau indicated that most of the items OIG identified in this finding have been remediated
and those requiring longer term efforts have been added to the system POA&M. It stated that it
could not replicate the finding of out-of-date virus signatures and that two issues we identified in
Cisco components were not accurate.

In response to our recommendation to ensure improved control assessments, BEA reiterated that
security assessment reports were being prepared for each control family assessed in its
continuous monitoring, the authorizing official accepts risks or prescribes corrective actions, and
the system POA&M will include deficiencies that cannot be corrected promptly.

OIG Comments

BEA corrective actions are responsive to our recommendation to add the deficiencies we
identified to the system’s POA&M and remediate them in a timely manner. The bureau suggests
that most deficiencies have already been corrected and therefore will not be added to the
POA&M. In those cases, the remediation should be verified through appropriate control testing—
which can be done as part of the continuous monitoring. With respect to the out-of-date virus
signatures, BEA staff and OIG jointly concluded that the signatures had been out-of-date at the
time of our testing, but had since been updated and were current as of a meeting held
immediately after our exit conference on May 8, 2008. Therefore, it was not a deficiency we
expected BEA to add to its POA&M.

BEA was not entirely responsive to our recommendation to ensure that control assessments were
improved through tailored procedures and well-supported results (4.2). Rather than addressing
tailoring of assessment procedures, the bureau emphasized its security assessment reports
(results) and in response to an earlier recommendation (2.1) indicated that more current
assessment results from its contractor were thoroughly documented with clear and appropriate
artifacts.




                                               Page 12
                                                   OIG FY 2008 FISMA Assessment




Table 1: Examples of Technical Examinations or Tests Not Supported by Evidence.
                                         BEA’s C&A Package
Control     Procedural           Certifier’s Results      ST&E Results            OIG Comments




                                                                                                        

            Step                 (full quotation)         (full quotation)




                                                                       

IA-3             IA-3.1 Examine BEA’s                                             There is no evidence that Nmap was used to assess this
Device           records or documents                                             control or even what relation Nmap has to the
Identification   and information system                                           implementation of this control. Specific settings examined
and              configuration settings to                                        are not identified (“Nmap and VPN configurations” does
Authentication   determine if the system                                          not identify which specific settings pertain to Device
                 uses either shared                                               Identification and Authentication—and it is unlikely that
                 known information or                                             either would have settings relevant to IA-3).
                 BEA’s authentication
                 solution to identify and                                         The statement “tested an IT system for compliance,” in
                 authenticate devices on                                          the ST&E results gives no specifics as to what the test
                 local and/or wide-area                                           actually consisted of (i.e., how was the test performed?)
                 networks.                                                        or what components were tested. There are no artifacts
                                                                                  or other evidence of such a test.

                                                                                  The procedural step (taken from NIST SP 800-53A,
                                                                                  Second Public Draft) was not tailored for the specific
                                                                                  control implementations in the system. (For example, the
                                                                                  assessment did not document which specific settings
                                                                                  were examined or how they pertain to IA-3 or, what the
                                                                                  data collection method was.)

                                                                                  Neither set of results reflects the actions called for in the
                                                                                  procedural step. We also note that the procedural step
                                                                                  and certifier’s result are the same in the FY06 and FY07
                                                                                  packages.

SC-14            SC-14.2 Test the publicly                                        There is no evidence that a penetration test took place on
Public Access    available information                                            the system. BEA staff told us that no such test took place
Protections      system by attempting to                                          and could not explain why the certifier claimed one had.
                 alter protected                                                  The procedural step and certifier’s results are the same
                 information using a                                              from FY06 to FY07.
                 public account to
                 determine if access is                                           ST&E results suggest the need for additional assessment
                 limited in order to                                              using commercial products to assess the control but
                 preserve the integrity of                   .                    provide no evidence that the control is in place or that the
                 the information and the                                          additional assessment was conducted. The statement,
                 applications.                                                    “Technical controls seem to stop this type of activity” is
                                                                                  not supported by any specifics or evidence. There is no
                                                                                  basis for the conclusion: “Low – Met all requirements to
                                                                                  satisfy this control.”




                                                             Page 13
                                                   OIG FY 2008 FISMA Assessment



Table 1: Examples of Technical Examinations or Tests Not Supported by Evidence.
                                         BEA’s C&A Package
Control     Procedural           Certifier’s Results      ST&E Results            OIG Comments




                                                                                                       

            Step                 (full quotation)         (full quotation)

                      

AU-9            AU-9.1 Examine the                                                Certifier’s results do not identify which specific settings
Protection of   information system                                                were examined or what was specifically found. The
Audit           configuration to                                                  statement “Audit logs…are restricted by file
Information     determine if the system                                           permissions…These are limited to Domain and
                protects audit                                                    database administrators” is identical to the security plan
                information and audit                                             description for this control. There are neither evidence nor
                tools from unauthorized                                           artifacts that validate what the certifier claimed to have
                access, modification,                                             examined.
                and deletion.
                                                                                  ST&E efforts did not actually follow the procedural step.
                                                                                  Rather, they rely on document review and state that the
                                                                                  control should be in place based on system descriptions.
                                                                                  This was not a valid technical control assessment.




                                                             Page 14
                                                         OIG FY 2008 FISMA Assessment




Table 2: Examples of Control Assessments With Inappropriate or Incomplete Evidence.

                 BEA’s C&A Package
Control          Procedural        Certifier’s Results                                    OIG Comments
                                                                    Assessment Evidence
                 Step              (full quotation)
SA-7             SA-7.5 Test network traffic                                              While there was evidence that some sort of packet
User-Installed   on the information system                                                capture was performed, the file only showed five packets,
Software.        to determine if prohibited                                               which is not enough to assert that no unauthorized
                 software is installed and                                                software is operating on the system.
                 operational by utilizing a
                 network packet analyzer.                                                 Neither the results nor the evidence was specific about
                 (Note: Applications tend to                                              actual procedures employed for the packet capture (such
                 communicate on known                                                     as at what point on the network the traffic was “sniffed,”
                 ports and/or have                                                        whether a filter was used to look for specific protocols,
                 signature traffic patterns                                               what protocols were observed, etc.).
                 and common packets.)
AU-3             AU-3.2 Test the content of                                               There are two logs with time stamps from 5/08/07 but
Content of       audit records by                                                         neither appear to be Windows event logs as suggested
Audit Records    attempting to perform                                                    by “security, application, and system” described in the
                 actions that are configured                                              results. Besides being in the AU artifacts folder, there is
                 to generate audit records                                         .      nothing to tie them to this procedure.
                 to determine if the audit
                 records capture sufficient                                               The procedural step calls for an event to be generated
                 information to establish                                                 followed by an examination of the logs to see if the event
                 what events occurred, the                                                can be reconstructed and identified. It is unclear if the two
                 sources of the events, and                                               logs are the actual logs used in the test since the
                 the outcomes of the                                                      procedures do not state what the event was or which
                 events.                                                                  components were meant to capture the event, and the
                                                                                          logs were not analyzed. The fact there are logs in the
                                                                                          certification package that have a time stamp for the same
                                                                                          day as the procedure is incidental.
CM-7             CM -7.2 Test the                                                         Actual output from external telnet requests was included
Least            information system to                                                    demonstrating that the certifier tested one prohibited
Functionality    determine if the identified                                              protocol on one component. However, the assessment
                 functions, ports, protocols,                                             was not comprehensive.
                 and services are
                 prohibited or restricted.                                                Note: The ST&E results state that the assessment was
                                                                                          done with vulnerability scanning, which would be a more
                                                                                          complete approach. BEA stated that the certifier’s results
                                                                                          were definitive and would incorporate the ST&E results.
                                                                                          However, there was little evidence that the certifier had
                                                                                          used the ST&E results, as demonstrated by the different
                                                                                          method the certifier chose to assess the control.




                                                                   Page 15
                                                                             OIG FY 2008 FISMA Assessment

Table 3: Examples of Assessment Procedures and Results Without Specific Information.

                     BEA’s Original (FY06)                                                BEA’s FY07 Procedural Step/Result
                                                                    OIG Comments
Control              Procedural Step/Result                                               (full quotation, with changes to the   OIG Comments
                                                                    (in FY06)
                     (full quotation)                                                     FY06 assessment results in bold)
AU-9                 AU-9.2 Test the protection of audit                                                                         Assessment results do not provide a basis
Protection of        information and audit tools from                                                                            for evaluating the adequacy of the security
Audit                unauthorized access, modification, and                                                                      control. It is unclear what was done to test
Information          deletion by attempting to gain                                                                              the control or on which components the
                     unauthorized access, modify, and delete                                                                     control was assessed.
                     audit information.
                                                                                                                                 The only evidence in the certification
                     Assessment Result:                                                                                          package for this date was a log showing a
                     The certifier tested the protection of audit                                                                failed logon attempt to a
                     information and audit tools from                                                                            switch—demonstrating that the system
                     unauthorized access, modification, and                          .                                           logs failed access attempts. The test did
                     deletion by attempting to gain                                                                              not address the control requirement that
                     unauthorized access, modify and delete                                                                      the system protect audit information and
                     audit information.                                                                                          audit tools from unauthorized access.

                                                                                                                                 BEA audit data, in addition to being stored
                                                                                                                                 on network devices, is stored on SYSLOG
                                                                                                                                 servers and Windows components.
IA-2                 IA-2.3 Test the information system to          A                                                            The assessment does not describe the
                                                                    


User                 determine if passwords, tokens, or                                                                          specific test(s) performed. While the
     





                                                          





Identification       biometrics meet Level 2, 3, or 4                                                                            results describe generic component
                





                                                      





and                  requirements consistent with NIST                                                                           classes and one specific application, there
    





                                                          





Authentication       Special Publication 800-63.                                                                                 is no supporting evidence in the certifier’s
                 





                                                                                                                                 assessment artifacts for IA.
                     Assessment Result:
                                          





                     The certifier tested the information                                                                        Note: The default domain policy is
                                                          





                     system and has determined that                                                                              included in a separate part of the C&A
                     passwords, tokens, or meet Level 2, 3, or                                                                   package and includes password policy
                     4 requirements consistent with NIST                                                                         settings, but this would only work for
                     Special Publication 800-63.                                                                                 Windows components and is not evidence
                                                                                                                                 of a test, but instead a configuration
                                                                                                                                 examination (if in fact the password policy
                                                                                                                                 was examined).

                                                                                                                                 There is no evidence of
                                                                                                                                 password settings, application settings, or
                                                                                                                                       device settings.



AC-3                 AC-3.2 Examine access control                  Controls were                                                The testing mentioned in the results is not
Access               mechanisms to determine if the                 assessed by                                                  detailed to any degree and does not




                                                                                         Page 16
                                                               OIG FY 2008 FISMA Assessment
Table 3: Examples of Assessment Procedures and Results Without Specific Information.

              BEA’s Original (FY06)                                       BEA’s FY07 Procedural Step/Result
                                                         OIG Comments
Control       Procedural Step/Result                                      (full quotation, with changes to the   OIG Comments
                                                         (in FY06)
              (full quotation)                                            FY06 assessment results in bold)
Enforcement   information system is configured to                                                                match the procedural step to examine
              implement the organization’s access                                                                access control mechanisms.
              control policy.
                                                                                                                 There is no evidence to support a test or
              Assessment Result:                                                                                 examination of access control
                                                                                                                 mechanisms to determine if BEA’s access
              The certifier examined the BEA IT                                                                  control policy is correctly implemented.
              Security Plan, BEA Standard Operating                                                              There is some discussion of Active
              Procedure 50-18A:Network Users                                                                     Directory in the ST&E result. However, the
              Creation Procedure, BEA Remote                                                                     discussion pertains to password length
              Access Security Standard, BEA                                                                      (IA-2), not access enforcement. There is
              Standard Operating Procedure 20.6                                                                  no evidence in the package that the
              (Revision 3) Employee Accountability                                                               access enforcement mechanisms for
              Clearance, BEA Standard Operating                                                                  workstations, network devices, databases,
              Procedure 20.17 (Revision 5): Security                                                             and applications were all examined or
              Standards and Authorizations, Technical                                                            tested as claimed by the certifier.
              Requirements to Remote Access to BEA
              Information Technology Resources, BEA                                                              Specific components tested are not
              Local Area Network Security Policies,                                                              identified.
              BEA Standard Operating Procedure 80.2:
              Password Policy for Information                                                                    There is no additional analysis by the
              Technology Resources Within the BEA                                                                certification team to identify if it found any
              Network, BEA IT Remote Access                                                                      deficiencies or the basis for its assertion
              Security Work Agreement, BEA                                                                       that access control mechanisms “are
              Configuration Management Policy, BEA’s                                                             configured to implement the BEA access
              System Change Request Process and                                                                  control policy.”
              the DOC IT Security Program Policy and
              Minimum Implementation Standards
              (June 2005) chapter 17, section 17.4.
              Based upon the information obtained by
              examining the documentation, the
              certifier has determined that BEA’s
              access control mechanisms for the
              information system are configured to
              implement the BEA access control policy.




                                                                         Page 17
                                                                        OIG FY 2008 FISMA Assessment




Table 4: Different Results in Certifier’s and ST&E Assessments.

                    BEA’s C&A Package




                                                

                    Security Plan                                                       ST&E Assessment Results
Control                                                 Certifier’s Results                                            OIG Comments



                                     


                    Description                                                         (full quotation, staff names
                                                        (full quotation)
                    (full quotation)                                                    removed)

AC-14               BEA does not permit access to                                                                      There is no evidence of a test as
      





Permitted           the Local Area Network to                                                                          described in certifier’s results. Since the
Actions Without     perform any actions on the BEA-                                                                    test description lacks specifics, there is
Identification or   EITS system without                                                                                little assurance that requirement is met.
Authentication      identification or authentication.                                              .
                                                                                                                       The ST&E results conclude there is no
                                                                    .                                                  need to test the control. However, simply
                                                                                                                       prohibiting access to the system in policy
                                                                                                                       does not verify that there are no accounts
                                                                                                                       such as guest accounts that do not
                                                                                                                       require a password. The assessment
                                                                                                                       should validate this in the control
                                                                                                                       implementation.
AC-18               BEA has no internal wireless                                                                       Certifier’s results state: ”BEA does not
Wireless            access points to the BEA                                                                           allow wireless access,” but the security
Access              network, except Blackberry.                                                                        plan describes controls for Blackberry
Restrictions        BEA’s Enhancement Control                                                                          implementation.
                    Implementation:
                    All wireless traffic to and from                                                                   The ST&E asserts                       server
                    the BES server and the                                                                             configuration settings were examined but
                    Blackberry handheld devices is                                                                     there is no supporting evidence in the
                    Triple DES (3DES) encrypted                                                                        package. Since the results do not specify
                                                                                                                       which specific settings, there is little
                                                                                                                       assurance the control was properly
                                                                                                                       assessed.
AC-2                All BEA accounts have                                                                              The ST&E results found that inactive
Account             passwords that expire in 90                                                                        accounts are not automatically disabled.
Management          days. While the account is not                                                                     Yet the certifier’s results, which BEA
                    disabled as required by this                                                                       holds as definitive, state that the system
                    control, it is effectively made                                                                    does automatically disable inactive
                    unavailable after 90 days until                                                                    accounts.
                    an administrator changes the
                    password.




                                                                                  Page 18
                                                                     OIG FY 2008 FISMA Assessment




Table 5: Summary Comparison of Results from OIG Control Assessment and BEA Security Certification.

Control       Control Requirement                       BEA’s Security Assessment Report            OIG Assessment Result (Summary)
                                                        (SAR)
AC-2          The organization manages                  BEA SAR states:                             An examination of user accounts on BEA-EITS verified that BEA
Account       information system accounts,                                                          is following its procedures for establishing, activating, modifying,
Management    including establishing, activating,                                                   disabling, and removing accounts.
              modifying, reviewing, disabling,
              and removing accounts. The                                                            Assessments revealed that the BEA system has the tools and
              organization reviews information                                                      capabilities in place to regularly review accounts but there was no
              system accounts [Assignment:                                                          evidence to support accounts are reviewed weekly as required by
              organization-defined frequency, at                                                    BEA policy. (Assessments in the ST&E indicate that it is done
              least annually].                                                                      monthly rather than weekly as required by policy)
              Control enhancements:
              (1) The organization employs                                                          While the security plan states that BEA does not create
              automated mechanisms to support                                                       temporary or emergency accounts, BEA’s account management
              the management of information                                                         policy states that temporary accounts are issued to employees
              system accounts.                                                                      such as interns.

              (2) The information system                                                            As noted in the SAR and SSP the BEA system is not configured
              automatically terminates                                                              to automatically disable accounts after an organizationally-
              temporary and emergency                                                               defined period. As a compensating control BEA states that
              accounts after: Not Applicable.                                                       password expiration will cause the account to be locked until it is
                                                                                                    reset by an administrator. We assessed the described
              (3) The information system                                                            compensating control (for enhancement 3) and verified that in
                                          





              automatically disables inactive                                                       fact the user is locked out when the password is expired.
                                                





              accounts after 90 days.
                                      





              (4) The organization employs
                                              





              automated mechanisms to audit
                                                  





              account creation, modification,
                                                





              disabling, and termination actions
                                                    





              and to notify, as required,
                                         





              appropriate individuals.
                                     





AC-3          The information system enforces                                                       A review of security groups for BEA operating divisions revealed
Access        assigned authorizations for                                                           that division security groups allow for access enforcement within
Enforcement   controlling access to the system in                                                   the information system.




                                                                                                                             

              accordance with applicable policy.

                                                                                                    However, a review of three user accounts and their assigned
                                                                                                    rights showed that one account was not added to the proper
                                                                                                    security groups according to the user’s account authorization
                                                                                                    documentation.




                                                                               Page 19
                                                                    OIG FY 2008 FISMA Assessment



Table 5: Summary Comparison of Results from OIG Control Assessment and BEA Security Certification.

Control          Control Requirement                      BEA’s Security Assessment Report         OIG Assessment Result (Summary)
                                                          (SAR)
AC-7             The information system enforces a                                                 An assessment of a variety of components implementing this
Unsuccessful     limit of three consecutive invalid                                                security control indicated that the implementation is not
Login Attempts   access attempts by a user during                                                  consistent system-wide and some components are not enforcing
                 a/n [organization-defined time                                                    authentication policy as required by BEA policy.
                 period] time period. The
                 information system automatically                                                  Two of     Windows components were not compliant with BEA
                 locks the account/node for 15                                                     policy (account lockout was not enabled).
                 minutes, when the maximum
                 number of unsuccessful attempts
                 is exceeded.

AU-2             The information system generates                                                  Assessment of BEA policy found that it addressed the NIST SP
Auditable        audit records for the following                                                   800-53 minimum requirements for this control.
Events           events: [Assignment: organization-   

                 defined auditable events].                                                        An assessment of selected system components revealed that
                                           





                                                                                                   audit and logging policy are not uniformly implemented
                                                                                                   throughout the information system.

                                                                                                   Four of        Windows components assessed were not
                                                                                                   compliant with BEA policy.

                                                                                                   One of the         devices assessed was not configured
                                                                                                   according to BEA policy requirements.



IA-2             The information system uniquely                                                   An assessment of a variety of components implementing this
User             identifies and authenticates users                                                security control indicated that the implementation is not
Identification   (or processes acting on behalf of                                                 consistent system-wide and some components are not enforcing
and              users).                                                                           authentication policy as required by BEA policy.
Authentication
                                                                                                   Two of      Windows components assessed did not have
                                                                                                   minimum password length set to 8 characters.




                                                                              Page 20
                                                                  OIG FY 2008 FISMA Assessment



Table 5: Summary Comparison of Results from OIG Control Assessment and BEA Security Certification.

Control          Control Requirement                    BEA’s Security Assessment Report         OIG Assessment Result (Summary)
                                                        (SAR)
IA-5             The organization manages                                                        An assessment of a variety of components implementing this
Authenticator    information system authenticators                                               security control indicated that the implementation is not
Management       by:                                                                             consistent system-wide and some components are not enforcing
                 (i) Defining initial authenticator                                              authentication policy as required by BEA policy.
                 content;
                 (ii) Establishing administrative                                                Two of         Windows components are not enforcing password
                 procedures for initial authenticator                                            history or minimum password age requirements.
                 distr bution, for lost/compromised,
                 or damaged authenticators, and                                                  An additional Windows component had more stringent maximum
                 for revoking authenticators.                                                    password age settings (42 days) than BEA Windows Security
                 (iii) Changing default                                                          standard—which raises a question about implementation of the
                 authenticators upon information                                                 standard across all devices.
                 system installation.
                 (iv) Changing/refreshing
                 authenticators periodically.
SI-3             The information system                                                          Of the   components we examined, 12 had virus signatures that
Malicious Code   implements malicious code                                                       were out-of-date, with most being at least 60 days old.
Protection       protection.




                                                                            Page 21
                                                              OIG FY 2008 FISMA Assessment



Table 5: Summary Comparison of Results from OIG Control Assessment and BEA Security Certification.

Control         Control Requirement                 BEA’s Security Assessment Report         OIG Assessment Result (Summary)
                                                    (SAR)
CM-6            The organization develops,                                                   An assessment of a variety of components implementing this
Configuration   documents, and maintains a                                                   security control indicated that the implementation is not
Settings        current baseline configuration of                                            consistent system-wide.




                                                                                                                      

                the information system.




                                        

                                                                                                   components:




                                                                                                                  

                                                                                             Secure configuration baselines are well-documented for
                                                                                             components. Assessment of the running configurations revealed
                                                                                             that some settings for logging were not in place for some network
                                                                                             components—running
                                                                                                                                            One       router
                                                                                             and one        firewall had security settings that were not
                                                                                             compliant with BEA-defined settings.

                                                                                             Windows Components (Including          ):

                                                                                             Category I findings not addressed by or in conflict with BEA
                                                                                             Windows Security Standards.




                                                                                             In addition, our Gold Disk results revealed    unique Category II
                                                                                             and 29 unique Category III findings exist on one or more of the
                                                                                             12 windows components assessed with the Gold Disk tool.

                                                                                             NOTE: The Category II & III findings are raw results and may
                                                                                             have false positives counted in these figures.




                                                                        Page 22
                                    OIG FY 2008 FISMA Assessment


Appendix A: Objectives, Scope, and Methodology

To meet the FY 2008 FISMA reporting requirements, we evaluated the BEA certification and
accreditation for the Estimation Information Technology System (BEA-EITS, or BEA-015).
Security certification and accreditation packages contain three elements, which form the basis of an
authorizing official’s decision to accredit a system.

    •   The system security plan describes the system, the requirements for security controls, and
        the details of how the requirements are being met. The security plan provides a basis for
        assessing security controls and also includes other documents such as the system risk
        assessment and contingency plan, per Department policy.
    •   The security assessment report presents the results of the security assessment and
        recommendations for correcting control deficiencies or mitigating identified vulnerabilities.
        This report is prepared by the certification agent.
    •   The plan of action & milestones is based on the results of the security assessment. It
        documents actions taken or planned to address remaining vulnerabilities in the system.

Commerce’s IT Security Program Policy and Minimum Implementation Standards requires that C&A
packages contain a certification documentation package of supporting evidence of the adequacy of
the security assessment. Two important components of this documentation are:

    •   The certification test plan, which documents the scope and procedures for testing
        (assessing) the system’s ability to meet control requirements.
    •   The certification test results, which is the raw data collected during the assessment.

To evaluate the C&A package, we reviewed all components of the package and interviewed BEA staff
to clarify any apparent omissions or discrepancies in the documentation and gain further insight on
the extent of the security assessment. We give substantial weight to the evidence that supports the
rigor of the security assessment when reporting our findings to OMB.

In addition, we performed our own security control assessments on BEA-EITS and compared our
results with BEA’s certification test results. We chose a subset of the control requirements specified in
NIST SP 800-53, and a subset of assessment procedures from NIST SP 800-53A, Third Public Draft.
We tailored the procedures to BEA’s specific control implementations. We did not attempt to perform
a complete assessment of each control; instead we chose to focus on specific aspects of some of the
more important technical and operational controls.

We assessed controls on key classes of IT components, choosing a targeted set of components from
each class that would allow for direct comparison with BEA’s certification test results while also
targeting specific components that BEA did not test. We assessed control implementations on:
Windows components                                                                                  ,
        ), and          devices                                                   . In addition, we
examined the security plan descriptions, including related policy documents, and interviewed
appropriate BEA personnel.

Because of the importance of BEA’s economic products, we adapted our assessments to minimize
the impact on system operations. As a result, some assessments could not be performed on certain
system components. For example, assessments involving the creation, modification, or deletion of
user accounts on routers, firewalls, and switches were not performed. Our assessments included the
following activities:

    •   Extraction, examination, and verification of system configurations
    •   Generation of system events and examination of system logs

                                                 Page 23
                                    OIG FY 2008 FISMA Assessment


    •	   Execution of DISA scripts (Gold Disk)
    •	   Examination of user and group authorizations
    •	   Addition, modification, and deletion of operating system accounts

Our assessment was limited in scope and should not be interpreted as the comprehensive review that
a security certification for a moderate impact system would require. However, our assessments gave
us direct evidence of the status of select aspects of important controls in BEA-EITS and provided
meaningful comparison to the BEA security certification.

We used the following review criteria:
   •	 Federal Information Security Management Act of 2002 (FISMA)
   •	 U.S. Department of Commerce, IT Security Program Policy and Minimum Implementation
      Standards
   •	 NIST’s Federal Information Processing Standards (FIPS)
           o	 Publication 199, Standards for Security Categorization of Federal Information and
                Information Systems
           o	 Publication 200, Minimum Security Requirements for Federal Information and
                Information Systems
   •	 NIST Special Publications:
           o	 800-18, Guide for Developing Security Plans for Information Technology Systems
           o	 800-37, Guide for the Security Certification and Accreditation of Federal Information
                Systems
           o	 800-42, Guideline on Network Security Testing
           o	 800-53, Recommended Security Controls for Federal Information Systems
           o	 800-70, Security Configuration Checklists Program for IT Products

We conducted our evaluation in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency in
January 2005.




                                                Page 24
lt~~BEA
BUREAU OF ECONOMIC ANALYSIS
          I       (         (
                                                                     .s. Department      of Commerce
                                                                    Economics and tatistlcs Administration




August 12, 2008

MEMORANDUM TO:                  Judith J. Gordon
                                Assistant Inspector General for Audit and Evaluation
                                Office of Inspector General
                                Department of Commerce

FROM:                           J. Steven Landefeld     Os"­
                                Director            /

SUBJECT:                        Bureau of Economic Analysis
                                FY2008 FISMA Assessment ofBEA Estimation
                                Information Technology System
                                Draft Inspection Report No. OSE-19001

Thank you for your recent draft assessment report of BEA's Certification and Accreditation
package. In reference to your findings and recommendations:

Finding/Recommendation #1: The system security plan provided an adequate basis to conduct
the security certification.
   Response: We have worked hard on our comprehensive security plan, which forms the
   foundation of our security program, and would appreciate any suggestions that you may have
   for further enhancements.

Finding/Recommendation #2: BEA needs to improve its security control assessment to assure
that controls are implemented as intended.
   Response: The private sector contractors that we have used for the FISMA-required external
   assessments of our security controls have come to us with good recommendations. However,
   we would appreciate OIG's assistance in finding consultants who can be more successful in
   producing the more rigorous documentation that you detailed for these external assessments.

Finding/Recommendation #3: BEA needs to correct its process for tracking and reporting
security weaknesses.
    Response: BEA carefully tracks, tests, schedules, and implements all security requirements;
    however, as noted in the OIG report our process has not included provisions for assuring that.
   this information is filed with, and made available to, the Department's OCIO through Plans
   of Actions and Milestones (POA&Ms).

Finding/Recommendation #4: Assessment ofselected BEA security controls found weaknesses in
those controls that BEA 's certification did not.
    Response: The Bureau continuously monitors the effectiveness of our security controls. Our
    first priority is the protection of critical market sensitive and company confidential data. As
    a result we had devoted the bulk of our scarce resources to protecting that core data.



        1441 L   treet NW       Washington. DC 20230     p.202.606.9900        www.bea.gov
   However, we understand the importance of protecting the entire system, and are expanding
   the scope of our continuous monitoring program to ensure coverage of all system
   components.

Attached documents contain specific comments, and detail actions taken, in response to your
report. BEA appreciates your recommendations and we are using them to further improve the
Bureau's IT security program.

Attachments


cc: Rosemary Marcuss, Suzanne Hilding, Brian Callahan
··r..BEA
~~I
BUREAU OF ECONOMIC ANALYSIS
U.S. DEPARTMENT OFCOMMERCE
                                                                     u.s. Department of Commerce
                                                                     Economics and Statistics Adntinislration




August 11, 2008


MEMORANDUM TO: 	               J. Steven Landefeld
                               Director

FROM:          	               Brian Callahan
                               Chief Information Officer

SUBJECT: 	                     Bureau of Economic Analysis
                               FY2008 FISMA Assessment of BEA Estimation
                               Information Technology System
                               Draft Inspection Report No. OSE-19001

I reviewed the FISMA Assessment of the BEA Estimation Information Technology System. The
recommendations in the report will serve to further strengthen BEA’s IT security continuous
monitoring program. The program is designed to mitigate new and ongoing threats to integrity
and availability of the system.

BEA has addressed most of the points that were raised in the draft report. Specifically:

   •	 We have increased the scope of our continuous monitoring program, with special
      emphasis on the NIST SP 800-53 technical control families. All tests, examinations, and
      interviews are performed by an independent contractor who reports directly to BEA’s
      CIO. Test results are thoroughly documented with clear and appropriate artifacts. For
      each control family a Security Assessment Report is prepared for AO review and action.
      In addition the contractor performs random inspections of security defenses to ensure that
      they are performing as specified in BEA’s Security Plan.

   •	 Although not required               impact system, the Bureau had a team of
      independent contractors conduct a penetration test on BEA's information technology
      infrastructure. The team was unable to penetrate BEA’s local area network but did
      provide some recommendations related to the external infrastructure which were
      promptly implemented.

   •	 BEA continues to move forward in developing a standard configuration standard for
      Windows          servers. BEA utilizes the Defense Information Security Agency’s (DISA)
      “Gold” as a secure configuration benchmarking tool. As the DISA documentation clearly
      states, each setting must be thoroughly tested before implementation in a production
      environment. BEA produces critical economic estimates such as Gross Domestic Product
      (GDP) monthly. BEA’s risk-based secure implementation plan was designed with twin
      goals: benchmark and configure our most valuable assets first, and minimize the
      possibility of disruption in the ongoing statistical production process. Configurations for



        1441 L Street NW   •   Washington, DC 20230   •    p.202.606.9900   •   www.bea.gov
       servers on BEA’s Local Area Network which process our market sensitive and company
       confidential data were benchmarked and configured early in the process. We are now
       benchmarking less sensitive servers. This risk-based approach is reflected in the report
       where it is noted that some servers did not conform to our standard. In accordance with
       the report recommendation BEA has developed a Plan of Action and Milestones for
       completing this work across all servers.

   •




BEA is a small operating unit. To ensure the independence of the process BEA hires private
sector firms to perform the certification of the BEA Information Technology Estimation System.
Past successful performance has been the heavily weighted criterion in the vendor selection
process. Unfortunately these vendors have not met the documentation expectations of the OIG.
Our experience is that what is considered acceptable documentation varies greatly across
agencies. BEA is determined to meet all applicable expectations and looks forward to working
with the OIG and DOC CIO in developing written standards and a list of vendors whose work
has met these standards. BEA has consistently volunteered to be an early implementer of the
CSAM system. We believe that this system is a positive step in developing a standard approach
to building system certification documentation packages.

BEA’s IT staff benefited from the technical insights gained by working with the OIG reviewers.
Hopefully we were able to provide the reviewers some insight as how the NIST InfoSec
guidelines apply within a very operational/production-orientated technology environment.

Attached is a table that reflects the updated status of actions recommended in the draft report.
BEA looks forward to discussing our continuous monitoring program with the OIG.

Attachment
Status of action items to address OIG recommendations

Synopsis of            OIG Recommendation                         Status of Action Item to Address Recommendation
Finding
1. System security     1.1 Document secure configuration
plan provided an       baselines with BEA’s rationale for
adequate basis to      deviating from the benchmarks as
conduct the security   appropriate.
certification.




                       1.2 Update secure configuration
                       baseline for  using the most current
                       DISA benchmark available.

2. Security            2.1 Ensure all control assessments are
certification lacked   supported by credible evidence to
credible supporting    validate the assessment results.
evidence for           2.2 Ensure evidence shows that all
technical security     applicable aspects of a control and an
control                appropriate sample of components
assessments.           implementing it have been assessed.
                       2.3 Ensure assessment procedures
                       and results include specific information
                       about the implementation of the control
                       and steps taken to assess it.
3. Vulnerabilities     3.1 Comply with Department policy and
were not included in      guidance in tracking and correcting
the security              system security deficiencies.
assessment report         3.2 Create POA&Ms to address the
(SAR) or identified in    Windows vulnerabilities described in
POA&Ms.                   the OIG report.
                          3.3 Explain vulnerabilities in SARs
                          according to guidance found in NST
                          SP 800-37.


                          3.4 Articulate the vulnerabilities for
                          which the bureau is accepting risk.
                          Unimplemented secure configuration
                          settings should be addressed in the
                          SAR as well as the accreditation
                          decision letter. If BEA chooses to
                          redefine its secure baseline, that
                          document should be updated with
                          appropriate risk rationale.




4. OIG assessment         4.1 Ensure deficiencies the OIG
of selected security      identified are added to the system’s
controls found            POA&M and remediated in a timely
significant               manner.
weaknesses not
identified by the BEA
security certification.
4.2 Ensure control assessments are
improved through tailored procedures
and well-supported results which
provide a transparent view of the status
of controls.                               .




                                               

                                 OIG FY 2008 FISMA Assessment



Appendix C: Assessment of Selected Security Controls

A compact disk containing the procedures we used to assess security controls implemented on
selected system components from the Estimation Information Technology System was provided to
BEA. The disk also included our assessment results, analysis, and supporting evidence.




                                            Page 25
